No. 20-1824
IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT LUCAS,
Petitioner,

v.
TRICIA MOORE, MARCIA PHELPS, LICKING COUNTY,
OHIO, AND THE CITY OF NEWARK, OHIO,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

REPLY BRIEF

VINCENT LUCAS, PH.D.
P.O. Box 272
Amelia, OH 45102
(513) 294-8786
vincentlueaslegal@gmail.com
Petitioner

TABLE OF CONTENTS
This case involves conflicts of law between the
Sixth and Seventh Circuit Courts of Appeals

1

This case is not an issue of "best practices"

3

HI. The Respondents' reasoning was rejected by
this Court in Maracich

4

CONCLUSION

5

1
L This case involves conflicts of law between the
Sixth and Seventh Circuit Courts of Appeals
The Respondents' brief is incoherent. First, they
claim that the "alleged conflict is not 'with a decision
of another court of appeals.'" But later they admit
that the alleged conflict is between the Sixth and
Seventh Circuit Courts of Appeals. Resp. Br. 4.
The conflict is a conflict of lag between the Sixth
and Seventh Circuit. One of this Court's primary
functions is to resolve conflicts of law between the
federal Courts of Appeals. Sup.Ct.R. 10(a). (1.) The
kw in the Seventh Circuit is that courts must do a
balancing test to weigh the disclosure's utility to the
government against the harm. The law in the Sixth
Circuit is that no balancing test should be used. (2.)
The law in the Seventh Circuit is that the scope of the
disclosure is relevant; the government may not
"exceed the scope" justified by the alleged permissible
use. The law in the Sixth Circuit is that scope is not
relevant. It does not matter that the scope of people to
whom the disclosure is made vastly exceeds what is
justified to achieve the permissible use.
The Respondents' Brief at 4 states that the
Petition "cites only the disagreement between the
Sixth and Seventh Circuit in the application of a
balancing test." (Emphasis added). That is false. One
of the disagreements is whether a balancing test
should be used at all. The law in the Seventh Circuit
is that "[W]e need to balance the utility (present or
prospective) of the [government's disclosure of]
personal information ... against the potential harm."
Same u. Village of Palatine, 784 F.3d 444, 447 (7th
Cir. 2015). However, the law in the Sixth Circuit is
that no balancing test should be used. Thus, the
conflict is not a "misapplication of a properly stated

2
rule of law." The conflict is that the law is materially
different between the two Circuits.
The Sixth Circuit did not apply any balancing test
at all. If the Sixth Circuit would have applied a
balancing test, its Opinion would contain a
comparison of the disclosure's harm to me versus the
benefit to the government and an analysis of whether
that benefit outweighs the harm. However, the Sixth
Circuit's Opinion contains none of that, because the
law in the Sixth Circuit is that a balancing test should
not be used.
If ever there was a case in which the benefit versus
harm weighs in favor of non-disclosure, it is this case.
No legitimate government purpose is served by
providing the public with my Social Security Number.
The harm of disclosing my SSN to the public is
obvious. The benefit to the government is non-existent
because prosecutor Moore could have easily avoided
the public disclosure by redacting or filing under seal,
and her prosecution would not have been hindered in
the slightest. Pet. at 9-11.
Another major disagreement of law is whether the
scope of the disclosure is relevant. The law in the
Seventh Circuit is that the government "can disclose
the information only in a manner that does not exceed
the scone of the authorized statutory exception."
Serene, 695 F.3d 597, 606 (7th Cir. 2012). 'There is an
argument for placing identifying information such as
height and weight on a ticket placed face down under
a windshield wiper, but it would be at once
unnecessary and an offensive invasion of privacy to
place that information in a newspaper. on a billboard,
or on the police department's website." Bernie, 784
F.3d at 447-48 (emphasis added). Thus, the law in the
Seventh Circuit is that the range of people to whom a

3
disclosure is made is highly relevant. The fact that the
government may be justified in making personal
information available to a limited range of people (i.e.
people in the immediate vicinity of the parking ticket)
does not justify making the information available to
the entire world. By contrast, the law of the Sixth
Circuit is that the scope of the disclosure is irrelevant.
The Sixth Circuit held that because Moore was
justified in disclosing highly restricted personal
information to one person (the judge), she is permitted
to disclose the information to the entire world. This is
beyond absurd. Under this reasoning, if the IRS
requests a driver's SSN from a Department of Motor
Vehicles, the DMV could satisfy that request by
posting the SSN on the DMV's public website.
IL This case is not an issue of "best practices"
The Respondents and District Court trivialize the
issue by saying that the DPPA does not mandate "best
practices." At issue is Moore's practice of disclosing
Social Security Numbers to the public for no good
reason. To say that this is merely an issue of best
practices is like saying that it is merely a "best
practice" for a surgeon not to amputate the wrong leg
or a "best practice" for the police to have probable
cause before conducting a strip search during a traffic
stop. This case is no mere issue of "best practices." At
issue is an egregious violation of basic privacy rights
by the Respondents and whether the DPPA prohibits
that privacy violation. The Respondents and District
Court fixate on just one sentence of a footnote from
Senne, 695 F.3d at 606 n.12, quote it out of context,
and ignore everything else in the Senne opinions.

4
M. The Respondents' reasoning was rejected by
this Court in Maracich
The Respondents argue that their disclosure is
permitted under a literal reading of the DPPA's
exemptions. Like other statutes, the DPPA requires
court interpretation, and this Court is the ultimate
authority on interpreting federal statutes. The
Respondents' arguments are very similar to the
arguments rejected in Maracich v. Spears, 570 U.S. 48
(2013). Therein, the defendants argued that under
the "plain language" of the DPPA, lawyers are
permitted to obtain from DMV records the names and
addresses of potential plaintiffs in order to solicit
them to join a lawsuit — the disclosures "fall squarely"
under the DPPA exemptions, since the disclosures
were "For use in connection with ... litigation." 18
U.S.C. §2721(b)(4).
This Court disagreed. This Court held that the
DPPA must be interpreted and its exemptions must
be read "narrowly in order to preserve the primary
operation of the statute." 570 U.S. at 60. "Unless
commanded by the text, however, these exceptions
ought not operate to the farthest reach of their
linguistic possibilities if that result would contravene
the statutory design." Id.
The violation of privacy rights in this case is far
more egregious than in Maracich. In Maracich, the
disclosure was only of names and addresses to
lawyers. By contrast, in this case, the disclosure is of
my Social Security Number ("highly restricted
personal information" under the DPPA) and other
personal information to the general public, including
caner identity thieves.

5
CONCLUSION
The woeful inadequacy of the Respondents' Brief
illustrates that there is a serious conflict of law
between the Sixth and Seventh Circuits, the law in the
Sixth Circuit is wrong, and this case is an excellent
candidate for review by this Court.
Respectfully submitted,
Vincent Lucas

